<html>
<title> - EFFECTIVE ACCOUNTABILITY: TIER RANKINGS IN THE FIGHT AGAINST HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  EFFECTIVE ACCOUNTABILITY: TIER RANKINGS IN THE FIGHT AGAINST HUMAN 
                              TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                           Serial No. 113-193

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-712 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
LUKE MESSER, Indiana                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark Lagon, global politics and security chair, 
  master of science in Foreign Service Program, Georgetown 
  University (former Ambassador-at-Large for Trafficking in 
  Persons, U.S. Department of State).............................     7
Mr. Brian Campbell, director of policy and legal programs, 
  International Labor Rights Forum...............................    17
Mr. Blair Burns, vice president of regional operations, Southeast 
  Asia, International Justice Mission............................    44
Ms. Nathalie Lummert, director, Special Programs, Migration and 
  Refugee Services, U.S. Conference of Catholic Bishops..........    53
Wakar Uddin, Ph.D., director general, Arakan Rohingya Union......    71

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Lagon: Prepared statement.....................    10
Mr. Brian Campbell: Prepared statement...........................    20
Mr. Blair Burns: Prepared statement..............................    48
Ms. Nathalie Lummert: Prepared statement.........................    56
Wakar Uddin, Ph.D.: Prepared statement...........................    75

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Written statement for the record by Ms. Mara Hvistendahl.......    98
  Written statement for the record by Nora E. Rowley, M.D., 
    M.P.H........................................................   101

 
                     EFFECTIVE ACCOUNTABILITY: TIER
                     RANKINGS IN THE FIGHT AGAINST
                           HUMAN TRAFFICKING

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    Good afternoon and welcome.
    First of all, let me apologize for the lateness in 
convening this hearing. We did have a series of votes. And so, 
I do apologize for that delay.
    Welcome to this afternoon's hearing on the power of holding 
countries accountable in the annual Trafficking in Persons 
Report, including its tier rankings, for government successes 
or failures in the fight against human trafficking.
    Experts have observed that there are more slaves in the 
world today than at any previous time in history. With the 
Trafficking in Persons Report and tier rankings, the United 
States is ensuring more accountability and progress, more than 
ever we believe, in the fight to rid the world of modern-day 
slavery.
    Many joining us this afternoon have been in this fight for 
more than a decade, at least from the year 2000, when a law 
that I authored, the Trafficking Victims Protection Act, 
created a comprehensive policy that not only established the 
Office to Monitor and Combat Trafficking in Persons at the 
Department of State, but also the annual Trafficking in Persons 
Report.
    The success of the TIP Report and rankings is beyond 
anything we could have hoped for at the time. From presidential 
suites to the halls of parliaments, to law enforcement assets 
and police stations in remote corners of the world, this report 
focuses anti-trafficking work in 187 countries on pivotal goals 
of prevention, prosecution of the traffickers, and protection 
for the victims.
    Much of the praise for the success of the TIP Report is due 
to the incredibly effective Ambassadors-at-Large who have led 
the Office to Monitor and Combat Trafficking in Persons and 
their highly-dedicated staff. Ambassador Mark Lagon is one of 
them, and he is here with us today. We are honored to have him 
and look forward to hearing from him with his testimony.
    Each year the trafficking office evaluates whether a 
government of a country is fully complying with the minimum 
standards for the elimination of human trafficking or, if not, 
whether the government is making significant efforts to do so. 
The record is laid bare for the world to see and summarized in 
a tier rankings narrative. Tier 1 countries fully meet the 
minimum standards. Tier 2 countries do not meet the minimum 
standards, but are making significant efforts to do so. Tier 3 
countries do not meet the standards and are not making 
significant efforts to do so. Along with the embarrassment of 
being listed on Tier 3 as an egregious violator, such countries 
are open to sanctions by the United States Government.
    Over the last 14 years, mor than 100 countries have enacted 
anti-trafficking laws, and many countries have taken other 
steps required to significantly raise their tier rankings. Some 
countries openly credit the TIP Report as a key factor in their 
increased and effective anti-trafficking response.
    We created the Tier 2 Watch List in the 2003 TVPA 
reauthorization. This list was intended to encourage good-faith 
anti-trafficking progress in a country that may have taken 
positive anti-trafficking steps late in the evaluation year. 
Unfortunately, some countries made a habit of last-minute 
efforts and failed to follow through year after year, 
effectively gaming the system.
    To protect the integrity of the tier system and ensure it 
worked properly to inspire progress in the fight against human 
trafficking, Congress in 2008 created an automatic downgrade 
for any country that had been on a Tier 2 Watch List for 2 
years, but had not taken significant effort enough to move up a 
tier.
    The President can waive the automatic downgrade for an 
additional 2 years if he has certified ``credible evidence'' 
that the country has a written and sufficiently-resourced plan 
which, if implemented, would constitute significant efforts to 
meet the minimum standards.
    Last year was the first test of the new system, and it 
worked. China, Russia, and Uzbekistan ran out of waivers and 
moved to Tier 3, which accurately reflected their records. In 
this afternoon's hearing, we will evaluate whether these 
countries have made any significant progress over the last 
year. I am particularly concerned that China's trafficking 
crisis continues unabated.
    The recent U.N. Commission of Inquiry report on North Korea 
provides horrifying evidence of the trafficking of North Korean 
women to China for sex, brides, and labor. I would note, 
parenthetically, that I have chaired at least five hearings 
that we have heard trafficking victims tell their story, North 
Korean women, the lucky ones who are finally free from the 
slavery that they found when they crossed the border into 
China.
    An estimated 90 percent of North Korean women seeking 
asylum in China are trafficked for these reasons. Thousands of 
women a year leave desperate situations in North Korea, only to 
end up in a brothel or forced marriage, a tragic and 
astonishing fact.
    China's response has not been to provide protection for 
victims or to prosecute traffickers, and they are signers of 
the refugee convention, and they completely abrogate their 
responsibilities of refoulement under the refugee convention. 
They hunt down and repatriate North Koreans, send them back to 
hard labor, long imprisonments, and even execution.
    North Korean women are not the only victims. By 2020, more 
than 40 million Chinese men will be unable to find wives in 
China because of China's shortsighted and abusive one-child 
policy, which, coupled with modern abortion technology has 
triggered the mass abortion of tens of millions of baby girls, 
a human rights abuse in and of itself. Sex-selective abortions 
have also created a huge trafficking magnet, pulling victims 
into forced marriages and brothels from countries in proximity 
to China and beyond.
    China's extremely modest and overly hyped suggestion that 
it might relax the Draconian one-child-per-couple policy is 
unlikely to mitigate disaster and may be further counteracted 
by the spread of sex-selection abortion technology to even more 
of rural China. Whether the birth limitation is one child or 
two children in special cases, birth limitation policies 
constitute abuse, cruelty, and exploitation without precedent 
or parallel for baby girls and, by extension, the rest of 
society.
    The Government of China is failing not only to address its 
only trafficking problems, but is creating an incentive for 
human trafficking in the whole region. Although she could not 
join us today, renowned author Mara Hvistendahl, author of 
Unnatural Selection: Choosing Boys Over Girls and the 
Consequences of a World Full of Men, will be submitting 
testimony for the record specifically on the effect of the sex 
ratio imbalance as the cause of human trafficking and the 
proliferation of marriage agencies in China which traffic women 
from poorer countries into China and sell them into marriage.
    The hearing this afternoon will also take a look at a 
second set of countries this year that must be automatically 
downgraded unless they have made significant efforts to fight 
human trafficking. These countries include Thailand, Malaysia, 
Afghanistan, Chad, Barbados, and Maldives. Burma may receive a 
Presidential waiver in order to avoid a downgrade to Tier 3, 
but the facts on the ground don't justify that course of 
action.
    Cutting across Burma, Thailand, and Malaysia is the tragic 
plight of the Rohingya minority. Rohingya are leaving Burma by 
the thousands to escape religious persecution. However, 
according to reports put out by Reuters, Thai authorities are 
selling Rohingya to human traffickers, where they are held in 
tropical gulags until relatives pay ransom. Those who cannot 
pay the ransom are sold into sex slavery or hard labor and may 
die from abuse or disease. Thai authorities have done little to 
stop this practice. Their efforts at prevention and prosecution 
are said to be losing steam.
    Rohingya are often trafficked to Malaysia, where they are 
exploited for labor, the sad fact is that many Rohingya, a 
persecuted Sunni Muslim minority in Burma, hope to find refuge 
in Malaysia, a majority Muslim country. Burma is the source of 
Rohingya trafficking in the region. Policies of discrimination, 
child limitation, forced birth control, and violence push 
Rohingya minority to leave Burma and leave them as vulnerable 
refugees.
    The Burmese Government is culpable in this trafficking and 
the regional problems that their policies create. The Burmese 
Government has done little to stop trafficking of these 
individuals. Reports indicate that authorities profit from the 
sale of Rohingya traffickers and women are held at military 
bases as sex slaves and many men are used for forced labor. 
Though these practices have gone on for many years, I believe 
they are underreported in the State Department's TIP Report.
    Displaced by war and the Burmese military, women and 
children from the Kachin tribe in Burma are also subjected to 
human trafficking. Roija, an 18-year-old woman living in an IDP 
camp in northern Burma, was lured to China with the promise of 
a restaurant job. Once in China, she was bussed to a rural 
village and locked in a room. According to her testimony, she 
cried for 3 days and begged those around her to let her go. She 
was told to just give up and was sold as a bride for $5,312.
    The importance of accurate tier ratings in TIP Report 
country profiles cannot be overstated. That is why we are 
having this hearing. Again and again, we have seen countries 
turn 180 degrees and begin the hard work of reaching the 
minimum standards after the TIP Report accurately exposed with 
a Tier 3 rating and a truthful country report of each country's 
failure to take significant action against human trafficking.
    I will never forget two of our closest allies, Israel and 
South Korea, both were on Tier 3. I remember meeting with their 
Ambassadors who had files demonstrating to all of us and anyone 
who would listen, especially the TIP office, what measures they 
were taking to mitigate this terrible crime, these crimes that 
were occurring under their watch. And both of those countries 
got off Tier 3 when they took substantive action.
    So, this hearing is an attempt to further inform all of us 
and, by extension, the TIP office, of your concerns, experts in 
the field, and I look forward to hearing your testimony.
    I would like to yield to Dr. Bera.
    Mr. Bera. Thank you, Chairman Smith.
    And I know Ranking Member Bass is on her way, after votes, 
here. So, I will defer and let her make an opening statement.
    I just want to applaud the committee on your commitment, 
Mr. Chairman, and dedication to mitigating human trafficking. 
We have had a number of hearings, both here in the subcommittee 
as well as the full committee hearing. As the examples you 
pointed out, there is nothing more inhumane or reprehensible 
than human trafficking and our values as Americans clearly 
reflect the need that we have to stand up for the values that 
we hold dear the value of the dignity of life.
    Human trafficking occurs in virtually every country around 
the world, despite our efforts to end this horrible injustice. 
According to the International Labor Organization, nearly 21 
million people were human trafficking victims in 2012, and 
traffickers receive more than $32 billion a year.
    Tragically, our own country is no exception to this, with 
an estimated 300,000 children at risk each year in the United 
States for commercial sexual exploitation. This is a 
particularly important issue to me because it is a challenge in 
my home town of Sacramento.
    Sacramento is among the top U.S. cities that suffer from 
human trafficking, particularly childhood prostitution. And 
Sacramento, unfortunately, because of its location and many 
transportation routes, often becomes an entry point for other 
areas of the country.
    As we have discussed in this committee previously, one way 
the State of California is working on combating human 
trafficking is making sure there are lots of eyes on the 
ground. That is by training the public to look for those 
warning signs, so that they can be vigilant and notify 
authorities. This training certainly is incredibly important 
because, again, there is no more reprehensible crime, but we 
have got to raise that community awareness. So, again, we have 
those folks in the neighborhoods looking for signs of 
suspicious activity.
    In addition, employing a victims-centered approached where 
victims have access to social services and are empowered to 
take actions and steps toward the right direction in mitigating 
human trafficking. Again, it is very important for us to not 
revictimize the victims, but to help them rebuild their lives.
    Since the State Department's reports were first launched, 
120 countries have established anti-human trafficking laws. In 
this regard, it is incredibly important that the State 
Department continue to place countries in appropriate tiers, so 
we can find better ways to cooperate and stop trafficking, both 
internationally and at home. It is that leverage of proper tier 
placement that is very important, and I look forward to hearing 
about that from the witnesses.
    Mr. Smith. Thank you very much, Dr. Bera. Thank you for 
your comments, and I look forward to working with you even 
further on this important issue.
    I would like to now yield to Randy Weber, the vice chairman 
of the subcommittee and, also, the author of the trafficking 
law in Texas, when he was a member of the legislature there.
    Mr. Weber. Thank you, Mr. Chairman.
    I want to echo my colleague down there, the good doctor's 
comments about it is a terrific scourge and it is something 
that needs to be stamped out. In Texas we understood that.
    You know, they call a lot of the buyers of sex, actually, 
purchasers of sex, or POSes. And I told the last panel, I said, 
``We call them `POS' in Texas, too, but it is not the exact 
same connotation.'' And offline, I might tell you what that 
stands for.
    But, yes, we had a very important bill, House Bill 4009, in 
the Texas Legislature where we strengthened the definition of 
human trafficking, where we increased the penalties of human 
trafficking, where we made sure that law enforcement knew that 
these young girls that are pressed into slavery, basically, 
aren't always willing prostitutes, for example. Then, you dig 
deeper, look deeper.
    We actually made a Web site with HHSC, the Health and Human 
Services Commission, where they put it up online and they 
brought together all the NGOs and the different organizations 
and law enforcement, where they could go to get training. We 
had three, I think it was either three or four, seminars around 
the State each year where they would go and hear speakers, hear 
about the background.
    We like to say that everything is bigger and better in 
Texas, and it certainly is. Unfortunately, though, in this 
particular realm, we hold the record. Twenty-five percent of 
the human trafficking in this country is in Texas, and that is 
not one of the records that we want. And so, we set about to do 
something different, to change that.
    So, I applaud you all for being here, and I applaud, Mr. 
Chair, you for putting this hearing on, and look forward to 
what the witnesses have to say.
    I yield back.
    Mr. Smith. I would just say that those who are at risk or 
victims are safer because of the work you did, landmark work, 
in Texas.
    I would like to now introduce our distinguished panel, 
beginning first with Ambassador Mark Lagon, who was the 
Ambassador-at-Large from 2007 to 2009 in the Office to Monitor 
and Combat Trafficking in Persons.
    Ambassador Lagon went on to become executive director and 
CEO of the anti-trafficking nonprofit, the Polaris Project. 
Currently, Ambassador Lagon is the global politics and security 
chair at Georgetown University's master of science in Foreign 
Service program and adjunct senior fellow for human rights at 
the Council on Foreign Relations.
    Then, we have Mr. Brian Campbell, who is responsible for 
International Labor Rights' foreign policy, legal and 
legislative advocacy, and runs its campaign to end child labor.
    For several years, Mr. Campbell has led advocacy efforts in 
state-sponsored forced labor in Uzbekistan's cotton industry, 
working closely with child labor NGO partners in Uzbekistan to 
elevate the role of civil society in the country, promote 
enforcement of existing laws, policies, and standards that 
protect workers' core labor rights, and develop and improve 
legal and soft law instruments.
    We will, then, hear from Mr. Blair Burns, who is vice 
president of the Regional Operations for Southeast Asia at the 
International Justice Mission, where he oversees IJM's work in 
Cambodia, Thailand, and the Philippines to bring freedom and 
justice to victims of human trafficking and sexual assault.
    He also leads IJM's local and national strategies to reform 
the justice systems in these countries to ensure protection to 
the poor from violence.
    Prior to his role, Mr. Burns worked with IJM in India, 
where he led a team to rescue more than 700 people from 
slavery.
    I note, parenthetically, that IJM worked very closely with 
me and my staff, and with Mark Lagon over on the Senate side, 
when we were writing this legislation. And Gary and the rest of 
the team really had a great impact on the legislation, and I 
want to thank them for that.
    Then, we will hear from Ms. Nathalie Lummert, who is 
director of special programs with the U.S. Conference of 
Catholic Bishops' Migration and Refugee Services, where she 
manages initiatives relative to unaccompanied children and 
trafficking victims and immigrant detention.
    She has over 15 years of experience with forced migration 
issues and is an expert in case management, program 
development, and advocacy for various migrant populations.
    Prior to her work at the USCCB, Nathalie worked with the 
UNHCR and with at-risk populations, such as the homeless and 
runaway youth. Thank you, too, for your leadership.
    And finally, we will hear from Dr. Wakar Uddin, who is the 
director general of the Rohingya Union, where he is a key 
leader and advocate for Rohingya citizenship in Burma and for 
international political and humanitarian support of the people.
    He is also a founder and chairman of the Burmese Rohingya 
Association of North America, which works closely with various 
organizations to ensure the welfare of refugees and immigrants 
in the United States and in Canada.
    Ambassador Lagon, if you could provide your testimony?

  STATEMENT OF THE HONORABLE MARK LAGON, GLOBAL POLITICS AND 
 SECURITY CHAIR, MASTER OF SCIENCE IN FOREIGN SERVICE PROGRAM, 
     GEORGETOWN UNIVERSITY (FORMER AMBASSADOR-AT-LARGE FOR 
       TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF STATE)

    Ambassador Lagon. Chairman Smith, members of the committee, 
I thank you very much for inviting me. It is a special pleasure 
to look at the upcoming Trafficking in Persons Report with the 
legislator most responsible for putting that tool in the policy 
toolbox for the United States.
    This is an issue of robustly bipartisan concern, and I want 
to say I am pleased to see President Obama's personal 
engagement in the annual meetings of the Presidential 
Interagency Task Force on Trafficking. He used the occasion on 
April 8th to focus on victim protection, and I would like to 
say a word about that a bit later.
    Secretary Kerry and his team at the State Department 
deserve praise for going through with automatic downgrades of 
Russia, China, and Uzbekistan to Tier 3 in the TIP Report last 
year.
    I would like to speak to a few countries of particular 
concern meriting close scrutiny this year.
    Malaysia is among those countries that face an automatic 
downgrade to Tier 3. It desperately needs to amend its anti-
trafficking law to allow victims to live, travel, and reside 
outside of government facilities. It needs to increase efforts 
to prosecute fraudulent labor recruiters, and it needs to 
increase training to avoid government complicity in 
trafficking.
    Thailand, in Southeast Asia, is also on the cusp of an 
automatic downgrade. I would just like to say, as an aside, I 
think Thailand is an example, I found personally, of perhaps an 
unfortunate addition to the Trafficking Victims Protection Act, 
in the 2013 reauthorization that the House acceded to, drafted 
by the Senate. It gives credit in the minimum standards to 
countries that have conferences and partnerships with NGOs and 
other entities. Well, you know, I have worked with the Global 
Business Coalition Against Human Trafficking. I believe in 
partnerships. But when I went to speak at a conference in 
Thailand on Rule of Law last fall, that is not evidence that 
Thailand is doing more. Government action is what matters.
    Reuters reported this month that the Thai Government had 
shared statistics with the United States on human trafficking, 
but their veracity is suspect, particularly for the reason that 
the Rohingya people trafficked from Burma don't seem to be 
counted. They seem to be treated as human smuggling victims.
    In this region of Southeast Asia, one sees a particularly 
acute problem in the seafood sector. I testified before the 
Senate Foreign Relations Committee and the House Natural 
Resources Committee on human trafficking in illegal, 
unreported, and unregulated fishing. But trafficking doesn't 
just occur on the high seas. When that seafood comes to shore, 
it has got to be processed, and many migrants are subject to 
trafficking, just like Burmese victims I met 7 years ago, as 
Ambassador, on the outskirts of Bangkok. And that abuse 
persists today. That is a shame.
    Also in the East Asian region, otherwise admirable, 
affluent, democratic allies New Zealand and Japan, well, have a 
good record of spending resources elsewhere in the region, but 
they deserve some scrutiny for their conduct at home.
    New Zealand has for a number of years been assigned to Tier 
1, but look at the narrative of last year's report. The 
government hasn't prosecuted or convicted any offenders in the 
last 7 years nor has it identified any trafficking victims in 
the last 9 years.
    Japan deserves on the merits no more than a Tier 2 ranking. 
It is very much in the power of Japan to ratify the U.N. 
Palermo Protocol and pass a comprehensive anti-trafficking law, 
and it hasn't done it.
    When I am asked what region of the world exhibits the worst 
human trafficking, my answer is always the Arabian Gulf. There, 
documented guest workers, foreigners from South and Southeast 
Asia, and increasingly from Africa, as well as women, are not 
treated as human beings in full, not accorded access to 
justice.
    In particular, I am concerned with Qatar, which has earned 
a Tier 2 ranking the last 2 years. It is of special interest, 
given its preparations for the 2022 World Cup. Major sporting 
events cause a dual hazard of human trafficking in the 
construction of arenas and in the sex trafficking that spikes 
during the events.
    Mr. Chairman, I admire the fact that during the Super Bowl 
last year you spoke to that sex trafficking hazard in your own 
State of New Jersey.
    Well, in Qatar there was a report 2 weeks ago claiming that 
1,200 men had lost their lives since construction work started, 
far ahead of any loss of life or harm in Brazil and South 
Africa preparing for World Cup games, or even Beijing in 
preparing for the Olympics.
    Qatar is not alone in its responsibility. The source 
countries of migrants who are abused also are. And the 
Government of Nepal is a good example. By not regulating its 
labor recruiters who woo its nationals into debt, and for not 
more forcibly defending its nationals in diplomacy, it is a 
shame that Nepal is not doing more. It is too taken with the 
remittances that seem to make up a quarter of its economy.
    India, in South Asia, has the highest incidence of human 
trafficking globally. But one case outside of India deserves 
special attention. The arrest of the Indian diplomat Devyani 
Khobragade in the United States for trafficking of a domestic 
servant calls attention to the special priority that the 
Trafficking Victims Protection Act places on government 
officials' complicity in TIP.
    The U.S. regulation to penalize flagrant or repeated abuses 
of countries whose diplomats are bringing third country 
nationals into the United States has never been invoked. It is 
about time it is.
    Afghanistan faces an automatic downgrade to Tier 3, with 
families selling children for prostitution, insurgent groups 
forcing children to serve as suicide bombers, and labor brokers 
driving Afghan men, women, and children into forced labor 
abroad. We ought to, long after the U.S.-led invasion, be 
candid about the reality on the ground.
    A couple of more cases I would like to cite are ostensible 
success stories. Brazil, year after year on Tier 2, has had 
labor inspectors rescuing forced labor victims by the 
thousands, but it wasn't until last year's report that a case 
of labor slavery was documented as having earned an honest-to-
goodness prison sentence as opposed to a halfway house, a 
community service term, or some suspended sentence.
    Brazil is more broadly emblematic of a global pattern of 
impunity for labor trafficking. Continuing the statistical 
disaggregation introduced in my own tenure as Ambassador, the 
2013 report revealed that only 15 percent of prosecutions for 
TIP globally were for labor, rather than sexual exploitation. 
And that was double the 7 percent, a meager figure, the year 
before.
    In Europe, there remains a problem for demand for sex 
trafficking. How meaningful can the anti-demand efforts of 
nations which the TVPA minimum standards require the TIP Report 
to account for if sex buying is legal and, frankly, encouraged 
as a tourist industry by the Dutch, German, and other 
governments?
    In these examples, generally, one sees two imperatives for 
the U.S. anti-trafficking policy globally. First, fighting 
demand. It is intolerable to keep suggesting boys will be boys 
with the purchase of commercial sex. Sex trafficking grows in 
this swamp. It is for this reason that I support legislation 
sponsored by Congressman Hultgren to add a provision to the 
TVPA minimum standards which assesses whether national 
governments that have it in their power to criminalize sex 
buying, by the ``POSes'' that Congressman Weber spoke of, do 
so.
    Second, of the three famous P's of prosecution, protection, 
and prevention, protection of victims must come first. If the 
United States Government is spending so very little in this 
area relative to, say, corporate welfare and agribusiness 
welfare, how can we expect developing nations to advance victim 
identification, shelter capacity, physical/medical care, 
therapy for deep-layered traumas of victims, job training, and, 
finally, job placement, as the ultimate dignity-reclaiming step 
for a victim?
    In conclusion, Congress would do well to focus on demand 
and survivor empowerment. By focusing on them in oversight and 
legislation, it will contribute to the actual contraction and 
eventual abolition of what amounts to slavery in our time.
    Thank you.
    Mr. Smith. Ambassador Lagon, thank you very much for your 
testimony.
    Without objection, your full statement will be made a part 
of the record, along with that of all of our distinguished 
witnesses.
    Ambassador Lagon. I appreciate that, Mr. Chairman.
    [The prepared statement of Mr. Lagon follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. All right, now, Mr. Campbell, if you would 
proceed?

 STATEMENT OF MR. BRIAN CAMPBELL, DIRECTOR OF POLICY AND LEGAL 
           PROGRAMS, INTERNATIONAL LABOR RIGHTS FORUM

    Mr. Campbell. Thank you, Mr. Chairman.
    I want to start by saying that my testimony today is 
possible only through the sacrifices made by hundreds of 
Uzbekistani citizens who risk their lives year after year to 
fight against the mass crimes the Government of Uzbekistan is 
committing against its own people.
    Equipped with pen, paper, camera, and specialized training 
in monitoring and interview methodologies, the human rights 
defenders across the Uzbekistan band together in networks to 
anonymously and effectively gather as much evidence as possible 
about the Government of Uzbekistan's forced labor system. At 
great risk to them and their families, they find ways to get 
evidence out of the country to their colleagues at 
organizations like the Uzbek-German Forum in Germany and the 
Association for Human Rights in Central Asia, based in France, 
and others, so the information can be shared publicly.
    And I am here to say that their sacrifice has begun to bear 
fruit, and I have some good news to share, Mr. Chairman. Thanks 
in large part to your commitment, the commitment of the 
Congress as a whole in fighting against the crime of forced 
labor in Uzbekistan, the United States Department of State made 
the right decision last year and allowed the automatic 
downgrade of the Government of Uzbekistan to Tier 3 in its 
Trafficking in Persons Report. The decision was vital in 
convincing the Government of Uzbekistan to drop its 
longstanding opposition to the monitoring of the cotton harvest 
by the International Labor Organization. It was shortly after 
the decision was published last June that the Uzbekistan 
Government finely relented and signed the agreement to let the 
monitors in.
    As a result of this pressure, I am happy to report that the 
Government of Uzbekistan granted a reprieve to thousands of its 
own children under the age of 14 from having to participate as 
forced laborers in the cotton harvest last fall. Thousands of 
children were saved from the debilitating work of harvesting 
cotton by hand in a hazardous, often toxic working environment. 
Thousands of young children were saved from the fate of Amirbek 
Rakhmatov, a 6-year-old, first-year schoolboy from Vobkent 
District of Bukhara who died while out picking cotton with his 
mother last year.
    Unfortunately, the bad news still dwarfs the good news. 
Despite the presence of ILO monitors, the Uzbek Government 
continued its forced labor system for cotton production. It 
continued to operate a state-order system or command economy 
for cotton production that is underpinned by an extensive 
system of state-sponsored forced labor.
    Use of coercion begins with farmers and, then, increasingly 
over the course of the year, extends to all of its citizens and 
the system is administered by government officials nationwide. 
The government establishes a quota and, then, compels farmers 
to meet that quota and compels farmers to sell their cotton to 
the government. The government earns over $1 billion annually 
from this forced labor system. Farmers who fail to meet the 
government-established quota for cotton production continue to 
face severe consequences, loss of land, prosecution on criminal 
charges, and physical punishment included.
    During the harvest, farmers regularly report being scolded, 
humiliated, and beaten at their regular meetings held in their 
local communities in which they are supposed to report on their 
progress in fulfilling their cotton quota. To harvest the 
cotton, the Uzbek Government continued to systematically 
mobilize children aged 16 and 17 throughout the country and, 
also, 15-year-olds in many regions. They also, in different 
regions, depending on the local governor, mobilized the younger 
children as well, the children under 14 years old.
    Forced labor was organized through the state education 
system and the threat was expulsion from school. The forced 
mobilization of the harvest began in September and continued 
through November.
    In addition to children, the government systematically 
forced adult farmers, public sector workers, private sector 
workers, unemployed citizens, and those in receipt of public 
welfare benefits to labor. Authorities forced pensioners, 
mothers receiving social benefits, and other citizens to pick 
cotton under the threat of losing those benefits on which they 
depend.
    Under pressure from authorities in higher positions, 
administrators of public institutions and private business 
owners forced their workers to pick cotton under the threat of 
dismissal from their jobs. University administrators forced 
their students under threat of expulsion. Teachers and public 
sector professionals participated in the cotton harvest only 
because, if they didn't, they would lose their public sector 
jobs.
    Despite the undeniable evidence of forced labor, the 
Government of Uzbekistan continues to publicly deny that it 
operates a forced labor system for cotton production. They were 
very clear to the ILO stating directly that they do not operate 
a forced labor system.
    In fact, to perpetuate this myth, the Government of 
Uzbekistan tried to impose on the ILO certain conditions for 
their monitoring that made truly independent monitoring 
impossible. For example, the monitors were government officials 
from Uzbekistan who were accompanying the ILO.
    Despite these efforts to prevent independent monitoring, 
though, the ILO was still able to corroborate the civil society 
reports of the serious and continued use of forced labor by the 
Government of Uzbekistan. And the ILO findings were, then, 
corroborated again by the World Bank Inspection Panel who had 
sent the monitoring team to look into the forced labor possibly 
touching their projects. Their findings were very clear that 
their projects, when investing in agriculture in Uzbekistan, 
could benefit the forced labor system of cotton production.
    While we are confident that the ILO will continue to do its 
duty to use whatever diplomatic path it can find to end this 
forced labor problem, and we hope that they will continue to 
impress upon each and every government official that forced 
labor is a crime in violation of international law, we see no 
evidence that the Government of Uzbekistan is committed to 
ending its highly-profitable forced labor system and holding 
those who have perpetuated these mass crimes accountable under 
the law.
    We must all remember forced labor is a crime. Those 
investing in the cotton system, like Daewoo International 
Corporation from Korea, Indorama Corporation from Singapore, or 
even those who want to sell tractors and irrigation equipment 
to the government, made possible possibly by contracts funded 
by banks, the World Bank, possibly the Asian Development Bank, 
if they are offered, their potential for liability is very 
clear. Section 18 U.S. Code 1589 prohibits any person from 
knowingly benefitting from forced labor. Those who do face up 
to life in prison.
    And then, the Tariff Act of 1930 prohibits cotton products 
from being sold in the United States that are made with forced 
labor. And this is what happened to Indorama Corporation last 
October when they could not import their Uzbek cotton product 
into the United States.
    For companies who are investing outside the cotton sector, 
the risks are just as great that they will get pulled into the 
forced labor system as well. This is what happened to General 
Motors, whose employees were compelled to pick cotton during 
the harvest for the third consecutive year. And the people who 
compelled them? The Federation of Trade Unions of Uzbekistan, 
which is not an independent trade union. It is an agency of the 
government, but, also, one of the ILO social partners, and they 
were working with managers from the General Motors plant in 
Andijan.
    To end my testimony, I just want to say very clearly that, 
based on the evidence by human rights monitors, reports from 
the ILO and World Bank that the Government of Uzbekistan 
continued to impose a forced labor system for cotton 
production, while at the same time denying its existence, and 
the recognition of the sacrifices made by human rights 
defenders who risk their lives in fighting against the 
government's crimes, we adamantly urge the United States 
Department of State to maintain Uzbekistan on Tier 3 and to 
utilize all the tools at its disposal to bring an end to forced 
labor in Uzbekistan.
    Very specifically, we also call on the U.S. Government to 
exercise the sanctions made available under the TIP law. 
Utilize your voice and vote at the World Bank, at the Asian 
Development Bank, and prevent any investment that is going to 
benefit the forced labor system. We don't tolerate it for our 
own companies. We should not tolerate it for the multilateral 
institutions, either. Investing in forced labor is investing in 
a crime, and it cannot happen.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Campbell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Campbell, thank you very much for your 
clarity and for your insights.
    Last year Ambassador Lagon spoke about America's pathetic 
embrace of slavery which was in significant part about cotton. 
So, here we have it occurring in Uzbekistan, and I think your 
words couldn't have been more clear.
    I would like to now yield to Mr. Burns for his testimony.

   STATEMENT OF MR. BLAIR BURNS, VICE PRESIDENT OF REGIONAL 
   OPERATIONS, SOUTHEAST ASIA, INTERNATIONAL JUSTICE MISSION

    Mr. Burns. Thank you.
    As you said, my name is Blair Burns, and I work for 
International Justice Mission. IJM is a global team of 
attorneys, investigators, social workers, community activists, 
and other professionals working in over 20 communities 
throughout the developing world.
    I have been with IJM for 10 years and I oversee our work in 
Southeast Asia, where our offices focus primarily on combating 
the commercial sexual exploitation of children. Prior to my 
current position, as the chairman mentioned, I lived in 
Chennai, India, where I directed our programs to combat forced 
labor slavery in India.
    Thank you for asking me to testify today. My children don't 
actually believe that I am testifying before Congress. They are 
very cynical little people.
    And, Chairman Smith, thank you so much for your long time 
of leadership on anti-trafficking. It matters. It matters quite 
a lot.
    The 2013 Global Slavery Index indicates that there are more 
slaves today in our world than at any other point in human 
history. I have met a lot of them. They are people just like 
you and me. They are fathers and mothers, friends and 
coworkers, sons and daughters, grandparents and children, all 
of whom have the same hopes and dreams that we have to live 
lives of happiness, freedom from violence, and safety.
    Some might have us believe that they are slaves because 
they are victims of abject poverty, but that belies the fact 
that every country in the world has poor people, including this 
one, but only a minority of countries has a problem of slavery 
and human trafficking thriving within its borders.
    Slavery and sex trafficking are violent crimes. Such 
criminal enterprises fester and thrive only because local 
justice systems fail to enforce the laws that are against them.
    Why does slavery not fester and thrive in our country? 
Because the Government of the United States brings great 
resources to bear against those who would perpetrate such 
violence.
    But let me clarify. I am not here today to tell you 
horrific, dramatic tales about how bad things are. I am not 
here to draw you into an even more bleak picture. Rather, I am 
here to point you to some things that I am seeing in this fight 
that are very good, to point you to some places where women and 
men of goodwill are turning the tide against global slavery, to 
tell you more about an example of the great power of the United 
States being used rightly, to provide effective leadership to 
end one of the great tragedies of our time.
    To put it quite clearly, in 10 years of doing this work 
across Asia, I have seen no action of a Western government that 
is more effective at anything than the annual release of the 
Trafficking in Persons Report by the Department of State. I 
have had senior government officials in every Asian country I 
have visited from India to the Philippines tell me in private 
that their highest trafficking-related priority is to improve 
their nation's tier ranking on the next TIP Report.
    In my experience, the actions of these countries have borne 
out what they have told me behind closed doors. I want to tell 
you two stories.
    We have worked in the Philippines since 2001. Since that 
time, our offices have seen over 1,000 girls and women rescued 
from commercial sexual exploitation and hundreds of 
perpetrators jailed for their crimes. In 2007, with funding 
from the Bill and Melinda Gates Foundation, we launched an 
anti-trafficking program in Cebu, the second-largest city in 
the Philippines. Before beginning operations, we conducted a 
baseline study to measure the prevalence of children offered 
for commercial sex, to measure the extent of the crime.
    We, then, began operations by partnering with local justice 
system officials to enforce the Philippines' laws against the 
trafficking of children. The first thing we learned was that, 
as of that point, the laws were not being enforced at all. In 
our research we could find no evidence of any criminal 
prosecution of any trafficker in Cebu. We found that, in 
general, law enforcement lacked both the will and the capacity 
to act, but we also found that there were officials of goodwill 
who wanted to serve their country.
    Early in the project we partnered with the Philippines 
National Police Regional Command to create, train, and mentor a 
dedicated regional anti-trafficking unit. After just a few 
years, by 2010, over 70 suspected traffickers and pimps were in 
jail, as their trials progressed through the Philippines' 
glacial criminal justice system.
    And that is when some remarkable things began to happen. 
First, we conducted another study on prevalence and published 
the results. We found that the number of children offered for 
commercial sex had dropped by 79 percent in Cebu, 79 percent. 
In other words, with the sudden, unexpected, and sustained 
enforcement of the law, it finally became truly illegal to 
traffic children for sexual exploitation in Cebu.
    And so, what did most of the traffickers then do? They 
found other ways to make money. They stopped exploiting 
children.
    Second, in 2010, the TIP office put the Philippines in the 
Tier 2 Watch List for the second year in a row. And just 2 
years before that, the Congress required that countries could 
only stay on the Watch List for 2 years in a row. For those of 
you who might have voted for that, brilliant move. The 
Philippines was in grave danger of losing a lot of coveted 
foreign aid.
    And third, a new administration came into power in Manila. 
And so, in late 2010, the new Secretary of Justice, Leila de 
Lima, came to Washington for a meeting at the World Bank. She 
was in town for part of 1 day and called me to meet with her at 
the Embassy.
    We sat down. She looked me in the eyes and said, ``Tell me 
about your program in Cebu, and tell me how we can replicate 
that success throughout the rest of my country.'' I had a few 
ideas for her.
    Shortly thereafter, the Supreme Court directed all courts 
in the Philippines to fast-track the trafficking cases. We 
began to see cases that once took 10 years to move through 
trial reach judgment in one to three. We worked with the 
Secretary as she cleaned up and reestablished the Anti-
Trafficking Unit of the National Bureau of Investigations in 
Manila. Whereas agents of this unit once made barely-veiled 
death threats to our staff, they quickly became some of the 
closest law enforcement partners we had.
    The Philippines National Police, under a different ministry 
than Justice, decided to replicate the dedicated Anti-
Trafficking Unit in Cebu. It stood up units in Manila and 
Pampanga, incorporated our training curriculum into their 
regular training program, and partnered with our offices to 
provide ongoing mentorship to the units. Today they are in the 
process of incorporating these units into a single national 
command.
    So, what is the result? Today the trafficking of children 
is truly against the law in the Philippines, and everybody 
knows it. Why? Because that law is now enforced. And not only 
is the law being enforced, it is being sustainably enforced by 
elements of the Philippines justice system that are largely 
operating independently of IJM or any other NGO. When we 
conduct additional prevalence studies this year and in 2016, we 
fully expect to see further dramatic reduction in the violent 
crime of trafficking.
    And the story is quite similar in Cambodia, where things 
were once even worse. There, in 2003, we found entire open 
markets where minority Vietnamese girls ages 6, 7, 8, and 9 
were sold for a few dollars to any foreign pedophile who could 
find his way to Phnom Penh.
    The police and senior Cambodian Government officials knew 
exactly what was happening, yet took no action. Western 
governments were also unwilling to speak out. But, by 2005, the 
TIP Report put Cambodia on Tier 3, and we then have the 
government's attention.
    In response to earlier recommendations from the TIP office, 
Cambodia had already stood up a national-level anti-human-
trafficking department, but the officers of this department 
were both untrained and lacked any will to conduct any 
trafficking operations.
    With help from USAID, we launched a world-class police 
training program for the department, and then, we began ongoing 
case-by-case mentorship with the trained officers. We have 
continued that mentorship for nearly a decade.
    Slowly, but surely, the anti-human-trafficking department 
rose up into an effective law enforcement agency. Today the 
public does what was unthinkable then. When a girl goes 
missing, they call the police. We know this because, when that 
happens, the police call us.
    The department proactively enforces the law across the 
country and prosecutors and courts have followed suit. We have 
seen 187 convictions of traffickers in Cambodia in our cases 
alone.
    So, what is the result of real law enforcement in Cambodia? 
In late 2012, we conducted a prevalence study. The results were 
remarkable. Less than 1 percent of all sex workers were minors 
under the age of 15. Data collectors in three cities found no 
one offered for commercial sex under the age of 12.
    Thank you for inviting me today, and please let me know if 
you have any questions.
    [The prepared statement of Mr. Burns follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very, very much, Mr. Burns, for your 
testimony. You have made so many good points.
    Unfortunately, we have two votes. So, we will have to 
interrupt.
    Ms. Bass. Now?
    Mr. Smith. Yes, we are in the final 8 minutes of the first 
one.
    So, I apologize again to our two remaining witnesses. And 
if anyone has to go, obviously, you go, but we regret we won't 
get to ask you questions.
    But you did make a very good point, Mr. Burns, about when 
they were on Tier 3 in Cambodia; it got their attention. I have 
found, and I know Ambassador Lagon more than anyone else has 
found over the years, that when they are on Tier 3, I don't 
care who they are. They may protest--the Greeks protested 
mightily when they were placed on Tier 3--but it gets their 
attention. And naming and shaming is an important part of this 
process, but it ought to be followed by tangible sanctions, 
which often is not the case.
    But thank you for your excellent testimony.
    I would like to yield to Ms. Bass, if she has anything.
    Okay. I don't want to cut your testimony short, Ms. 
Lummert. So, if you don't mind, we will stand in brief recess, 
then come right back. These are the last two votes of the day. 
So, again, I apologize.
    [Recess.]
    Mr. Smith. The hearing will continue.
    I would like to ask--you were done, right, Mr. Burns? Yes.

STATEMENT OF MS. NATHALIE LUMMERT, DIRECTOR, SPECIAL PROGRAMS, 
  MIGRATION AND REFUGEE SERVICES, U.S. CONFERENCE OF CATHOLIC 
                            BISHOPS

    Ms. Lummert. Mr. Chairman, thank you for the invitation to 
speak today. I have a longer written testimony, but in my oral 
remarks I will focus on the Church's anti-trafficking efforts 
domestically and internationally and the partnerships which we 
think need to continue to expand in the efforts to combat human 
trafficking.
    As you may know, His Holiness Pope Francis has elevated the 
issue of human trafficking as a priority for the global Church. 
At a conference I attended at the Vatican this month, the Holy 
Father called human trafficking ``a crime against humanity and 
an open wound on the body of contemporary society.''
    This conference, organized by the Catholic Bishops 
Conference of England and Wales, gathered senior law 
enforcement and Church leaders from around the world to 
coordinate around combating human trafficking. The conference 
initiated a new international network of Bishops Conferences 
and law enforcement agencies working together to combat human 
trafficking. Pope Francis emphasized the importance of the 
complementary approaches of law enforcement and humanitarian 
efforts working together on this issue.
    It would be impossible for me to describe all the work of 
the Catholic Church globally in the area of human trafficking 
in 5 minutes; however, examples include COATNET, a coalition 
led by Caritas International, working across borders; Talitha 
Kum, an international network of women religious in 75 
countries; Catholic Relief Services; Bishops Conferences; and 
the pastoral presence of the Apostleship of the Sea, the 
Church's maritime ministry present in over 200 ports globally.
    The efforts of the Catholic Church in the U.S. are included 
in my written testimony.
    In March, the Vatican also announced a new partnership 
called the Global Freedom Network with the Anglican Church and 
the Grand Imam of al-Azhar, Egypt. The overarching goal of the 
initiative is to eradicate modern-day forms of slavery by 
encouraging governments, businesses, educational and faith 
institutions to rid their supply chains of slave labor.
    The Global Freedom Network will focus upon: One, raising 
awareness and education of the scourge at all levels of 
political life; two, assisting countries with developing a 
strategic plan to eradicate slavery and cleanse supply chains; 
three, facilitating support for the victims; four, advocating 
for enactment and reform of laws in countries which would help 
end trafficking and provide support for its victims.
    This is an exciting initiative that will be operated out of 
the Vatican, but, no doubt, will rely upon the assistance of 
the Catholic Church and other faith leaders worldwide, 
including the United States, to meet its goals.
    The Catholic Church in the U.S. is well-positioned to 
assist with the goals of the Global Freedom Network. Migration 
Refugee Services of the USCCB is engaged in anti-trafficking 
work, including protection of victims and education and 
awareness aimed at prevention.
    As you know, Mr. Chairman, the Bishops Conference also 
advocates on human trafficking issues. We have worked with you 
and other elected officials to enact the Trafficking Victims 
Protection Act and its subsequent reauthorizations. We are 
proud of these efforts and the protections in U.S. law for 
trafficking victims, but our work and yours is not done. In our 
written testimony we cite trafficking bills before the House of 
Representatives that should be considered and passed by this 
body, including legislation addressing supply chains and 
prohibiting excessive foreign labor recruitment fees for legal 
workers.
    The U.S. also needs to fully implement current law, 
including Section 104 of the TVPRA which calls for best-
interest determinations to identify child victims in other 
countries.
    In our written testimony we also highlight the importance 
of partnerships and ask for continued expansion of these. The 
TIP Report, admirably, attempts to include all partners in all 
aspects of fighting human trafficking. The Bishops Conference 
is thankful for this and asks for the continued expansion of 
faith-based groups as multi-level stakeholders in the global 
fight.
    The Bishops Conference does not normally comment on tier 
rankings, but we do point to the populations that we are aware 
of that need particular attention and that should be considered 
as being impacted. Included among these are refugees that we 
are resettling to the U.S. and that we are aware of 
internationally through U.S. Bishops' delegations to impacted 
regions, seafarers, and, also, among the most vulnerable, 
unaccompanied children, including unaccompanied children from 
Eritrea that are in Ethiopia and other places subject to 
trafficking through the Sinai; unaccompanied children in 
Central America that we have seen being vulnerable to human 
trafficking.
    Catholic Church partners are natural first responders and 
also bring expertise and knowledge. The Church is a voice for 
the voiceless, including in the most remote areas of the world 
where trafficking is occurring, including such examples as the 
fishing industry among seafarers, Eritrean refugees in Africa, 
and the border areas, such as in our own region, including 
Mexico and Central America. These voices can and should inform 
our national/international approaches to combating human 
trafficking.
    I will close my remarks about the importance of 
partnerships by drawing upon the example of the meeting at the 
Vatican on trafficking. During that meeting, stakeholder 
inclusiveness was highlighted in its most pure form. In 
addition to reaching out to law enforcement leaders, the Holy 
Father also focused his attention on and met with survivors of 
human trafficking. And these survivors also spoke to law 
enforcement and Church leaders, urging them to make stronger 
efforts.
    Mr. Chairman, in conclusion, I would like to thank you for 
your leadership on this important issue. The U.S. Catholic 
Bishops continue to look forward to working with you and your 
colleagues on eradicating the scourge from the earth. As Pope 
Francis tells us in his Joy of the Gospel, the issue of human 
trafficking truly involves everyone.
    Thank you, and I look forward to answering any of your 
questions.
    [The prepared statement of Ms. Lummert follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very, very much for your testimony and 
for the great, great work that the Catholic Church is doing 
around the world, and this new reinvigoration by Pope Francis. 
We know the Church was there working, and you were right to 
point out that when we were writing the original statute, which 
took three long years to get enacted, the USCCB, your General 
Counsel, you, your group, the USCCB was very involved with the 
actual writing of the text. So, I want to thank you for that as 
well.
    I would like to now introduce Dr. Uddin.

   STATEMENT OF WAKAR UDDIN, PH.D., DIRECTOR GENERAL, ARAKAN 
                         ROHINGYA UNION

    Mr. Uddin. Thank you very much. Thank you, Mr. Chairman and 
committee members, for giving me the opportunity to speak, to 
testify before the committee.
    I would like to focus on a particular ethnic minority in 
Burma known as Rohingya. This issue that human trafficking and 
the smuggling issue of Rohingya in western Arakan State, Burma, 
is not new. It has been simmering for decades. However, due to 
some media reporting and the reports from the Arakan Project by 
Chris Lewa from Thailand, and, most recently, the writers/
reporters has opened up this issue to the international 
community, and it has received widespread attention, the 
Rohingya smuggling and trafficking issue.
    Mr. Chairman, the primary cause of these Rohingya 
trafficking and smuggling, the root cause, is the situation on 
the ground in Arakan State in western Burma. The human rights 
violations, persecution, ethnic cleansing, actions of Burmese 
forces are tantamount to some kind of pre-genocide, precursor 
for pre-genocide crime against humanity. All these conditions 
faced by Rohingya people in western Arakan State in western 
Burma, in Arakan State, are the primary cause, the root cause 
of these subsequent events taking place for the persecution.
    This trafficking of Rohingya victims, actually, this 
trafficking has two phases. One is a smuggling phase and 
another one is the trafficking phase itself.
    The situation on the ground is so terrifying. It has been 
terrifying for quite some years. The victims, the Rohingya 
victims have nowhere to go. They are the victims of violence, 
persecution. Their villages have been burned, and they have 
been arrested for inciting violence, accusation of inciting 
violence, and they have been accused of burning their own 
homes. The police, Burmese police, have arrested hundreds of 
Rohingya men and women with the accusation that they burned 
their homes, to show the international community that, look, we 
are under ethnic cleansing and to have a better house to be 
built, to get more aids, that kind of accusation.
    This morning I received phone calls from victims from 
Arakan State. The authorities in Burma, local authorities, I 
should say, and the members of RNDP, Rakhine National 
Democratic Party, local officials have primed the Rohingya 
families ready for trafficking, ready for smuggling and 
trafficking.
    If you hear their arduous journey living in Arakan State, 
they cannot take the horror anymore. If you hear the arduous 
journey to Malaysia, Thailand, it is heartbreaking, the 
victims.
    We had a victim here 3 days ago at the University, at 
American University, at an event that she has given an account 
of her own horror she faced. She was supposed to come here 
today, but she couldn't.
    The sequence of events, let me describe the sequence of 
events, how it takes place. The homeless Rohingya families, the 
victims, including men, women, and children, they don't have 
anywhere to go. In certain areas, in northern Arakan State 
there are no IDP camps. So, whether there are camps are not, 
these people are vulnerable to fall prey into smuggling rings. 
So, they want to leave Arakan State, finding refuge anywhere in 
the world. So, that is the priming of the victims by the 
smugglers.
    The smugglers, the ring, the cartel, they board the 
families to the smaller boats, smaller, rickety boats, and, 
then, they ship them to larger vessels docked a few miles off 
the coast in Bay of Bengal. There are women, there are 
children, there are elderly, and there are also young men who 
are evading, absconding police because the police has issued an 
arrest warrant to arrest them. And once they get arrested, 10- 
to 30-year prison for arson, accusation of arson and violence. 
So, those, also, young men had to leave along with their 
families.
    What happened is, when they leave, the man particularly 
leaves; the family members left behind are mainly women and 
girls and their wives, their mothers, and they also become 
fallen to prey of the forces. They will be taken hostage. The 
women will be taken hostage by the forces and Buddhist Rakhine 
extremists and they will be confined in their camps and 
villages and become sex slaves.
    Just currently, there are serious issues. Several hundred 
Rohingya women and young girls, even minors, have fallen into 
traps of the sex slaves locally in Arakan State, in army camps, 
in settlement villages, and other places.
    Now these people who are leaving Burma with families, they 
go; they are leaving for anywhere they can find shelter, they 
can find refuge. So, these boats start taking them, sailing 
them south. Hopefully, their destination is Malaysia because 
they feel that they will find safe haven in Malaysia, but often 
they do not reach Malaysia.
    There are reports of boats sinking, people drowning because 
of the rough weather. Their navigation is not good. They get 
lost in the ocean. And the worst thing, Mr. Chairman, is that 
they are running out of food and water, while they are sailing, 
running out of fuel. They are drifting. They have drifted to 
India. They have drifted to Sri Lanka.
    And then, they often arrive in Thailand, as often Thai 
coast guards will pick them up and take them to detention 
centers. Often, these folks will land at the Thai coast, and 
those victims who are taken to prison and camps, then, at that 
point the trafficking phase will start. Until this point that 
they arrive Thai, it is smuggling. They are smuggling by these 
rings.
    When they arrive in Thailand, Thailand does not have a 
refugee law that provides status to these refugees, asylum to 
these refugees. So, they are kept in the camps indefinitely.
    Then, they have a thing called option two. The Thai police, 
Thai immigration officers then try to get rid of them, send 
them away from the Thai detention center through collaboration 
with cartels. Then, these men, women, children are sent to 
southern Thailand in sex slave camps, hard-labor camps, and 
other places.
    Often, Thai authorities separate women and girls from the 
family members, telling them that they need better protection, 
and they are taken somewhere else and there is no record of 
returning them. They never come back. We don't know where they 
are. Later, we found out that they have ended up in the trade 
of sex slaves. That is what happened in human trafficking when 
the Rohingya victims are sent to camps in Thailand.
    And the other scenario, Mr. Chairman, is those people who 
are not picked up by Thai authorities, but they landed 
themselves at the coast, and they are taken by the cartels into 
the camps and taken hostage, demanding ransom. You have to pay 
such-and-such amount of money to get released. So, they have 
phones. They are sophisticated. They have a phone system that 
makes them call their relatives in Malaysia, people who went 
before and working there, and demanding thousands of dollars 
for ransom. And then, upon the delivery of the cash, these 
victims are released. Often, all the people, the victims, could 
not find their relatives and neighbors and friends in Malaysia 
to save them, and they are languishing at these camps. And 
then, the women and girls, minors as little as 8 years, 
according to their testimony that they gave to me, are traded 
as sex slaves.
    So, these are the situation the Rohingya people are facing, 
starting from Arakan State, as persecution, a victim of 
persecution, to smuggling, to trafficking.
    Now how can we allow this to happen in this day and age, in 
this century? These people, the Rohingya victims, because of 
their fate, this trafficking, they are falling victim, the 
situation on the groundin Arakan State.
    I do not see any end to this, unfortunately, to this entire 
sequence of events, unless the situation on the ground in 
Arakan State is resolved. It is great that there are tiers, 
categories for different countries, for Tier 1, Tier 2, Tier 3. 
And President Obama has had a waiver for Burma, reportedly, 
about this trafficking issue. And is it incentive, we are 
wondering? If it is an incentive, is that working? Is the 
Burmese Government looking into this issue on the ground, where 
the horror is originating, ending in Thai and Malaysian border 
with trade of sex slaves and hard-labor people?
    If the waiver is working, that is a great thing. But I am 
afraid that the Burmese Government will enjoy this waiver and 
will not look into the situation on the ground. If you cannot 
go to the root cause of this, I don't see any other way to 
solve this issue.
    So, our appeal on behalf of the Rohingya people, I appeal 
to the international community, to the committee, to our 
Government, that we need to insert greater pressure on the 
Burmese Government to solve the issue on the ground with their 
reinstating their citizenship, giving them all their human 
rights, recognizing the ethnicity as Rohingya. They are 
refusing to recognize Rohingya as an ethnic minority, which has 
been documented historically, that existed in Burma before the 
'60s.
    Once their citizenship is given back to them, their rights 
are given back to them, they are recognized as a national race, 
an ethnic minority, and then, I think we are close, one step 
closer to solving these human smuggling and trafficking issues 
in Arakan State, Burma.
    Thank you very much.
    [The prepared statement of Mr. Uddin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much, Dr. Uddin.
    I would agree with you about the importance of really 
taking a hard look at Burma. You know, the release, and now 
somewhat reintegrated great Nobel Peace Prize winner Aung Sang 
Suu Kyi should not be allowed to gloss over other egregious 
human rights abuses, especially as they relate to trafficking.
    So, I do think your point--and perhaps Ambassador Lagon 
might want to speak to this--but the waiver authority, when we 
wrote that, wasn't meant to be the rule; it was meant to be the 
exception. It was meant to be done in good faith in a 
diplomatic embrace of the country that could easily be 
designated Tier 3, to say, ``Look, we want to work with you. We 
want to get to the point where you are meeting those minimum 
standards,'' which are what we need to apply to every country 
of the world, including the United States.
    The waiver authority has been exploited by both parties, 
unfortunately. And frankly, that is not the Ambassadors-at-
Large's fault; it is the regional bureaus' faults and people 
higher up, and particularly the Ambassadors who sometimes 
develop a little bit of a ``clientitis.''
    So, my hope is that there will be an effort made to really 
say, waiver authority, only use it as an exceptional tool, not 
as something that is just automatically meted out because it is 
a lot easier to do so.
    I will ask a couple of questions, yield to Ms. Bass, and 
then, to my good friend, Mr. Marino. Then, I have some 
additional questions I would like to get to as well.
    But let me just ask you, if I could, Mr. Ambassador, you 
know, one of the reasons why I voted against the Leahy 
amendment when it made its way over here, I had the competing 
bill that we wanted to bring up because it had a number of 
substantive changes that were not included in the Leahy 
amendment, but one of them was the cut in the TIP office's 
budget. Now they claim they can craft together monies from 
various spigots rather than have a straight-up, transparent 
authorization.
    But the other was the language that tilted in favor of the 
regional bureaus' additional gravitas in making decisions as to 
who goes on Tier 3, Tier 2, Tier 1, and Watch List. We haven't 
seen that play out yet. But that was a huge fight when we did 
the original TVPA back in 2000, that the regional bureaus 
didn't want this bill. They were against this bill. I met with 
so many of the people, you know, the Assistant Secretaries, the 
various desk officers. Then, we had round-the-clock meetings--
over 3 years you have a lot of meetings--with State Department 
people, very good people, but they didn't want it.
    And now, people who want to sideline or, you know, put 
trafficking on page 5 of the talking points, may have 
disproportionate influence on the Secretary, unless you have a 
very, very powerful Ambassador-at-Large. But, even then, he 
might get drowned out.
    Because, as we all know--and I will finish with this in 
terms of the question--when we did the first leader of the TIP 
office, we could not get Ambassador-at-Large language into the 
bill there was so much objection to it. So, we went with just 
the director, came back in 2003 and put Ambassador-at-Large 
because we wanted that gravitas to be equal to the weight of 
the work that he or she had to do.
    So, if you could speak to that, Mr. Ambassador?
    Ambassador Lagon. Well, you ask a great set of questions. I 
was disturbed, too, by an element of the 2013 reauthorization 
that was ostensibly meant to provide that there would be 
consultation between the regional bureaus and the TIP office. 
But the fact is that who has the pen, having been given to the 
trafficking in persons office on the preparation of the report, 
has been very important.
    And I will say a very hard-headed official Deputy Secretary 
of State, Richard Armitage, actually was crucial to the 
decision about how that would first get implemented. I think it 
would not be a good idea to hand that pen over to the regional 
bureaus.
    There is a constructive tension in the Department in which 
the overall picture of U.S. interests on multiple issues and 
the contexts of a state, you know, maybe it is a state at war, 
maybe there are real capacity issues, are brought forward by 
regional bureaus. But the fact that the experts on this in the 
trafficking in persons office are the ones who are principally 
charged with drafting, is essential.
    I do want to say one thing about personnel. The number of 
personnel is not everything. I would like to see the voice of 
the Ambassador-at-Large in the office raised, but it is not 
always the case that more is more. Some of the nimbleness of 
the office, some of the special qualities that you embedded in 
the legislation to act as a voice for civil society benefit 
from nimbleness.
    Mr. Smith. If I could just ask you one other question, 
because it was you, when you were Ambassador, who finally 
elevated the issue of China and the nexus with the one-child-
per-couple policy to its rightful place, and I will always be 
deeply grateful, all who care about human rights, I believe.
    No other nation on earth has so systematically exterminated 
the girl child in utero by way of sex-selection abortion than 
China. As I said, we are going to have hearing testimony from 
Mara Hvistendahl, the author of Unnatural Selection: Choosing 
Boys Over Girls and the Consequences of a World Full of Men, 
her testimony, which we will make a part of the record.
    But there is no doubt whatsoever that the magnet driving 
the Chinese situation are the missing daughters. They are gone, 
exterminated systematically every year since 1979 as part of 
the one-child-per-couple policy. Tens of millions, minimally--
some put it as many as 100 million; nobody knows for sure--but 
the ratio is without precedent in all of human history, and 
won't turn around anytime soon.
    So, the bride-selling and the trafficking, the magnetic 
effect of that dearth of women will occur and only get worse 
going on. I don't know how, frankly, the State Department could 
possibly designate China anything but a Tier 3 country, given 
the fact that they are surging toward more demand, based on the 
missing girls.
    And secondly, some of the very minor things that I have 
seen, you know, one of you mentioned earlier just attending a 
conference does not make a trafficking plan or any reason to 
rejoice. It is a step and that is all it is.
    If you could speak to that?
    Ambassador Lagon. Yes, you know, there are many reasons for 
serious scrutiny of China, on this issue of the demographic 
matter and others, with lots of faults on human trafficking. 
But the combination of the population policy, even if it is 
liberalized some--and we should watch with great skepticism 
whether the announced leadership reforms in population policy 
pan out--and attitudes which continue to stand throughout 
Chinese society about the value of a male child over a female 
child. That isn't changing, and that is, indeed, the magnet, 
combined with China's inhumane policy of not treating those who 
flee North Korea as refugees.
    They are under great pressure. Someone, a woman who comes 
over fleeing a desperate economic and political situation in 
North Korea, or a man as well, will be facing the fate of being 
deported back to North Korea for possible punishment or even 
execution. That is a huge situation of leverage.
    And when that is added to the magnet of a desperate desire 
for women as wives and as sex partners, you have a cocktail for 
a tremendous human harm.
    Mr. Smith. I have other questions, but I will hold off and 
ask Ms. Bass if she would proceed.
    Ms. Bass. Thank you very much, Mr. Chairman. As always, I 
appreciate your leadership on this issue for many, many, many 
years.
    So, I just wanted to ask several questions of various 
panelists, starting with Ambassador Lagon.
    I know that the White House recently launched a public/
private partnership to combat trafficking with the use of 
technology. Since I missed your comments earlier, I didn't know 
if you could talk about that and highlight some of the methods 
and strategies that are being used.
    Ambassador Lagon. Well, I am a big believer in partnerships 
as the lifeblood of the anti-human-trafficking movement. To her 
credit, former Secretary of State Hillary Clinton emphasized 
that as a fourth ``P.'' Before her, the former head of the U.N. 
Office on Drugs and Crime, Antonio Maria Costa, also said that 
there should be a fourth ``P'' of partnerships. And I think, 
truth be told, the Bush administration approach was one that 
believed in those partnerships as well.
    I think we should all look at ways that technology can be 
used, including crowdsourcing, to help the funding of NGOs and 
for looking at big data. But I think we should take care to 
remember that it is, in fact, an idea that every human being is 
of equal value and the people who are working in NGOs and 
businesses and government are the ones who really make the 
difference.
    High technology and big data for studying patterns, these 
are tools, and we should just remember these are tools in the 
service of trying to fight this terrible scourge.
    Ms. Bass. Are they being used? And how about the State 
Department? Has the State Department embraced the technology? 
Maybe you could give us some examples of where they were?
    Ambassador Lagon. Well, I think that, actually, the U.S. 
Agency for International Development has probably been on the 
forefront of trying to use technology, pursuing/offering up a 
challenge to potential grant applicants for the use of 
technology.
    Ms. Bass. Oh, is it in the process? Like they have a 
Request for Proposals out or something?
    Ambassador Lagon. They are, indeed, asking for people to 
come forward and working with a series of universities around 
the United States to try to figure out ways to use social media 
and ways to use high technology.
    One of the projects of the U.S. Agency for International 
Development is, in fact, an ability for you to be able to take 
your handheld out and scan a product and have a sense of its 
supply chain.
    Ms. Bass. Oh.
    Ambassador Lagon. That is a nascent effort----
    Ms. Bass. Right.
    Ambassador Lagon [continuing]. But a promising one.
    Ms. Bass. Another question, and this is related to the 
Netherlands. I wanted to ask you, I think last year you were 
critical of the Netherlands as a Tier 1 country. We know that 
in the Netherlands prostitution is legal. Anybody who has been 
there has seen it.
    But I wanted to know how the State Department has asserted 
that prostitution and human trafficking are linked, but how 
does it factor in the decisions around the TIP Report?
    Ambassador Lagon. Well, I think there has been a subtle 
change in the approach of the office. I think in the Bush 
administration and under the Obama administration there has 
been an emphasis on demand, but I do think that there is 
perhaps less emphasis on the importance of fighting sex buying.
    Let me be clear when I talk about, you know, the legal 
regime. What I am concerned about is putting the men who would 
be buyers of sex on the hook. And I think it is important not 
to punish women who are in the sex industry----
    Ms. Bass. Right.
    Ambassador Lagon [continuing]. Whether or not they are 
human trafficking victims.
    I think the model is not working in the Netherlands, and 
there have been really fascinating press stories on the model 
failing in Germany, where trafficking has spiked because of the 
legal regime. And country after country, the UK, France, and 
across the ocean, Canada, are pursuing legal changes to try to 
punish the sex buyers and move toward a more Nordic model.
    Ms. Bass. Right. I appreciate that.
    I didn't hear your testimony, Mr. Campbell, but I read your 
testimony about Uzbekistan. And I was wondering if you could 
talk about that in terms of the forced participation in the 
cotton harvest and if anything has changed. And also, you know, 
in terms of the textile industry, I don't know if any of our 
companies are sourcing from there.
    Mr. Campbell. Okay. Thank you, Congresswoman.
    To get right to the point, the situation continues largely 
unabated, that there continues to be forced labor compelled by 
the government and it involves children; in certain places it 
is younger than 14, but largely 15-, 16-, 17-year-old children 
from across the country, and it involves adults who come from 
all sectors, both the public and private sector for employment.
    And so, the situation continues. It is an urgent situation. 
Where it has changed a little bit--and I covered this a little 
bit in the testimony--was, because of the pressure, the 
pressure from this committee, the pressure from the U.S. 
Government, the Uzbek Government granted a reprieve for 
children under 14 years old across the nation from being 
systematically mobilized from across the nation. Now children 
under 14 continue to be mobilized in different parts by local 
government officials and stuff. So, they were mobilized still 
as a part of that system. Now whether they were systematically 
mobilized across the country, no, there were parts of the 
country that actually replaced their labor with adult forced 
labor.
    Unfortunately, what we have not seen is a change in their 
attitude toward the issue of forced labor in any way. I will 
just pull a quote really fast from the International Labor 
Organization which stated very clearly that ``The Government of 
Uzbekistan continues to deny that it has a forced labor 
problem.''
    It has invited the ILO to help advise it on understanding 
what its forced labor problem might be, although that has been 
pretty clear to everybody for years. It is also they have 
invited the ILO, I think just announced yesterday the ILO will 
send in a decent work team to do some education amongst the 
government. But we are still talking about education about a 
problem that the rest of the world has known about for years.
    Ms. Bass. They say it doesn't exist.
    Mr. Campbell. Yes. And in terms of supply chains----
    Ms. Bass. Right.
    Mr. Campbell [continuing]. I will say that the garment 
industry in the United States and the American Apparel and 
Footwear Association has been a tremendous supporter to clean 
their supply chains of this forced labor cotton.
    I mean, there is no question it is getting into our supply 
chains. Can we find it? It is really hard. The closest we have 
been able to really come was we know who is processing the 
cotton in Uzbekistan. There is a company, Daewoo International, 
a large Korean company, that has operations globally. They are 
processing that cotton and selling that cotton, and they are in 
full knowledge of the fact that they are benefitting from this 
forced labor system. They even said so on their own Web site.
    What they said was, what we can't do as a textile company 
is address this issue because it is a government forced labor 
problem in Uzbekistan.
    Ms. Bass. They don't have to source from there.
    Mr. Campbell. Well, I can't speak for Daewoo. I imagine 
that they would fear losing this guaranteed supply of very 
cheap cotton. I imagine that they would fear losing really what 
are their only major processing, yarn processing facilities for 
their other manufacturing.
    But that is the processed yarn. What we also are trying to 
learn more about, and we can find, for example, the cotton, the 
raw cotton is going to Bangladesh. The raw cotton is going to 
China. What we are trying to find out is who in Bangladesh, who 
in China is buying the raw cotton, because it is our opinion 
that this cotton is made with forced labor. Our laws prohibit 
the importation of goods made in whole or in part with the use 
of forced labor.
    Ms. Bass. Okay.
    Mr. Campbell. So, what we are trying to do is learn. I will 
congratulate, and I would like to say that the Department of 
Homeland Security and the Customs and Border Patrol and 
Immigration and Customs Enforcement have taken this situation 
very seriously.
    What we understand, though they will tell you they can't 
comment on an ongoing investigation, we received a response to 
a Freedom of Information Act request that we had sent whereby 
we were able to confirm that, at our request on a petition we 
filed last year, the Department of Homeland Security has opened 
an investigation into Indorama Corporation and into Daewoo 
Corporation. And partly as a result of that investigation, a 
shipment of cotton yarn from Uzbekistan was denied entry into 
the United States last October.
    We don't have the final outcome. What we hope is that the 
investigation into those two corporations will continue because 
those are criminal violations. And to the extent that either 
corporation is subject to the jurisdiction of the United 
States, they should be prosecuted for these criminal 
violations.
    Ms. Bass. Okay. Thank you.
    My final question I wanted to ask Ms. Lummert. One of the 
issues in trafficking that is of major interest to me is 
trafficking domestically here in the United States, not of 
primarily females from overseas, but girls right here.
    We know that a large percentage of these girls have a 
relationship to the child welfare system and they have fallen 
through the cracks for a long time. We just kind of assumed 
that any girl that ran away ran away and didn't realize that 
she was necessarily being forced and trafficked.
    And so, you spoke about the Catholic Church's work 
domestically. I was looking through your written presentation, 
and that part of it just was mainly talking about girls coming 
from overseas to here.
    So, my question to you is, is the Catholic Church involved 
in any kind of systematic way, focusing on the trafficking of 
girls here domestically? I know there are some males, but it is 
primarily girls. And if there is an organized effort on the 
Catholic Church's part?
    Ms. Lummert. Right. The Catholic Charities network in the 
U.S. is very extensive and they operate foster care programs 
throughout the country. Within those foster care programs, of 
course, they are seeing victims of trafficking domestically. 
Some of them may have been foreign-born, but they are 
trafficked within the U.S. as well.
    One of the things that we are doing is looking at our model 
of refugee foster care network that actually has served victims 
of trafficking, some of whom are brought in internationally, 
but some whom also have been trafficked within the U.S., to 
look at what has worked with that model of care and the 
services. We have served about 100 survivors of trafficking, 
children, girls and boys, both labor and sex trafficking, to 
see what are the practices that they are using and evaluate 
those practices. We hope to have that available soon.
    But what we are seeing from that work is the importance of 
having a trusting relationship with the service providers, a 
mentoring relationship with the professionals working with the 
children. We think that that will also be very valuable to the 
domestic child welfare system as well who are serving American-
born children.
    Ms. Bass. Yes, and maybe I can follow up with you because I 
would just caution a little bit that I do understand how in 
some ways it might be applicable, but I think there are a lot 
of ways it is not, and especially with a lot of the groups that 
are working with kids who were born here. And so, maybe there 
can be some relationship where we could be helpful to share.
    One of the things about this field is that there is a real 
lack of evidence-based practices dealing with this population, 
period. But I do worry because over the years the focus has 
been on the international, and I don't think we have paid--you 
know, we are certainly beginning now, and a lot with your 
leadership and the TIP Report, I think the situation in 
domestic trafficking is different.
    In the Los Angeles area, for example, some of that 
trafficking is done by street gangs. And so, it is really 
important to understand that different programs and practices 
might be needed.
    Ms. Lummert. One of the networks that I think that we could 
follow up with and get more information from is the Covenant 
House organization. They are involved with homeless and runaway 
youth.
    Ms. Bass. Right.
    Ms. Lummert. In fact, I used to work with them. They are 
involved with a Catholic coalition against trafficking as well. 
They are seeing this population.
    As you know, the children who are emancipating from foster 
care in the U.S. are the ones that are particularly vulnerable. 
The ones in foster care and the ones who are emancipating from 
foster care, they are vulnerable to the trusting relationship 
that these traffickers make the children believe that they 
have.
    Ms. Bass. Right.
    Ms. Lummert. They are exploiting the vulnerable situation 
and the lack of this trusting relationship or any protection 
system that is in place for them.
    Ms. Bass. Right, and I am sure you are aware that the age 
of emancipation, which is a term for which we probably should 
find a new one, is 18, but the average age that these girls are 
being trafficked is 12.
    Ms. Lummert. That is right.
    Ms. Bass. So, they are being recruited far before, well 
before they would reach the age of emancipation. So, hopefully, 
we can work together in the future.
    I work a lot with my colleague Tom Marino. We co-chair the 
Congressional Caucus on Foster Youth. And so, this has become a 
particularly important issue to us.
    Thank you.
    Mr. Smith. I would like to now yield to Tom Marino from 
Pennsylvania. Now we know, parenthetically, he was the U.S. 
Attorney for the Middle District of Pennsylvania, so a very 
accomplished prosecutor at that.
    Mr. Marino. Thank you.
    Karen is right, we work a great deal on foster care/
adoption. We see so many things taking place that we are trying 
to bring to the public's attention more and more here in the 
United States, particularly when it comes to the trafficking of 
young people, young girls.
    I, too, do not like the term that is used, this 
``emancipation.'' It turns one's stomach to see what we see in 
our Caucus.
    I have a concern here. I was reading a report by the UNODC, 
the United Nations Office on Drugs and Crime. It was gathered 
from 155 countries. And Executive Director Costa said that most 
countries, most of these 155 countries deny that there is any 
trafficking taking place.
    One question I have for the U.N. is, why do we have 
trafficking, human trafficking, tied up in a drugs- and crime-
gathering unit? We should have a very aggressive, specific unit 
totally devoted to human trafficking, starting right here in 
the United States and in the U.N.
    In my last several months of U.S. Attorney in the Middle 
District of Pennsylvania, I guess it was about 7 or 8 years 
ago, we prosecuted one of the largest human trafficking rings. 
It took place in certainly Pennsylvania, New York, New Jersey, 
and I think it went into Delaware, but I am not quite sure 
about that.
    We sent a couple of real bad fellows away for a very, very 
long time. And this was not a situation where they persuaded--
look, I am 61 years old--I call these ``young girls,'' out for 
sex. I mean, it was threats. It was taking hostage. It was 
beating these young girls. And if you would have heard the 
testimony coming from these victims, it would have broken your 
heart. But we put these guys away just about forever.
    I kind of miss those days from putting these culprits away.
    But this percentage of human trafficking within this report 
indicated that 79 percent of the human trafficking is for sex; 
18 percent of it is from forced labor. And as a matter of fact, 
in West Africa--and it is usually children in forced labor--100 
percent of the children that are trafficked, 100 percent of 
those trafficked are children in these areas, and most of it is 
close to home.
    So, the point I am painstakingly getting to is, once again, 
the United States steps up to the issue here at the U.N., but 
what is the U.N., in and of itself, doing? My patience is 
growing very, very thin with the United Nations. They talk a 
good game, but we don't see the results across the board on 
many issues, but particularly this issue.
    Ambassador Lagon. Mr. Marino, could I speak to that?
    Mr. Marino. Please.
    Ambassador Lagon. It is a good set of questions.
    I came to head the State Department's human trafficking 
office from the bureau that dealt with the U.N. And one of the 
threads in my career has been working on the U.N., including a 
book on international organizations I am about to publish.
    You asked really good questions. First, the U.N. Office on 
Drugs and Crime has played a leading role because the original 
treaty in the U.N. on human trafficking was attached to a 
transnational criminal networks treaty. I think it is 
problematic where there to be a singularly U.N. Office on Drugs 
and Crime approach. It should not surprise you that 
coordination between different agencies of the U.N. is crummy, 
a technical term, crummy.
    Mr. Marino. To say the least.
    Ambassador Lagon. There are good actors. UNICEF does some 
good work. The International Labor Organization does some good 
work. Outside of the U.N. system, the International 
Organization for Migration does some very good work.
    The U.N. solution to a problem with coordination is to 
create multiple coordinating bodies, which don't really improve 
the situation. The U.N. Office on Drugs and Crime, I think, 
would do a better job itself, to the degree that it is 
involved, if it would help train countries to implement laws. 
Because the major problem in human trafficking around the world 
is that countries have enacted laws and they have ratified this 
U.N. Palermo Protocol on trafficking, but they are not 
implementing it.
    Mr. Marino. But let me interrupt there because that looks 
good from a political standpoint, but if it is not enforced. 
And I think many times in these countries it is just for 
politics; okay, let's show the world that we are taking care of 
this.
    However, it boils down to revenue is certainly generated 
from child trafficking, particularly in the labor area, but 
also in the sex trade. So, these are countries that just, once 
again, give lip service. And we at the U.N., and the United 
States to a certain degree, we take it. Why are we not calling 
out in a general session of the United Nations--I would love to 
stand up there and read off the list of countries and the 
leaders of those countries, you know, where they have a law; 
some of them don't have a law, but what enforcement have they 
done?
    Ambassador Lagon. Right.
    Mr. Marino. I mean, it is about time we call these people 
out publicly.
    Ambassador Lagon. I entirely agree with you. So, two 
points.
    First, I think, despite the desire of the U.N. to have its 
own global report, the two that it has put out have not rivaled 
the State Department's report in their seriousness and 
completeness.
    And then, secondly, it is indeed exactly a problem of 
promises in rhetoric and on paper in laws and treaties, and not 
having action. I used to call this ``the loop,'' while I was 
head of the human trafficking office, a country would go up in 
its ranking when it passed a comprehensive law. And then, a 
couple of years later, you would see it wasn't enforcing it, 
and it went down again.
    Mr. Marino. I see my time is running out. But I say this 
with all good intentions. I would leave this position in a 
heartbeat if I had the authority and the team to go 
internationally and investigate and bring these people to 
justice.
    And I yield back.
    Mr. Smith. Thank you. Thank you very much, Mr. Marino.
    Let me ask Ms. Lummert a couple of questions, if I could.
    In your testimony you list the unique contributions of 
faith-based partners in the fight against trafficking. How can 
the U.S. Government better include faith-based perspectives and 
expertise in the fight?
    I do want to thank you for your 6 years as administrator of 
grants to foreign victims found in the U.S. As your testimony 
clearly points out, more than 2200 survivors of trafficking and 
over 500 of their family members were served during that time.
    I was, frankly, deeply distressed, disturbed, and tried to 
find some legal way of changing it, and could not find it with 
a reluctant Senate and with the administration taking the 
position it took.
    But when Kathleen Sebelius put out her Request for 
Proposals and said that organizations that refer for abortion 
will be given preference, they sealed the deal, sadly, at HHS 
and picked the winners not based on competence and the ability 
to positively affect the lives of trafficking victims, but 
based on who does abortions. As you know, the HHS reviewers 
looked at your program and gave it superlative marks, and these 
were the independent-minded HHS reviewers who looked at what do 
you do, what is your capacity, and how well did you do it. And 
unfortunately, it went to other organizations that scored far 
below you, at least one which I found extraordinarily 
distressing.
    But it has been my experience--and you may or may not want 
to speak to this--that faith-based has been given an arm's 
length approach by many over the years. When we first did this 
bill, there was a large number of people who wanted to exclude 
the faith-based side. They did it with PEPFAR. They have done 
it with other programs of the Federal Government. I am the one 
who authored the conscience clause on PEPFAR. It won by two 
votes in the Foreign Affairs Committee. So, it was not a slam-
dunk, so that faith-based healthcare could be included.
    So, my question, you know, you spoke eloquently about the 
initiative by Pope Francis to bring Christians, Orthodox, and 
Muslims together, but I think that is a new platform for 
further jumping off and doing more, particularly on the 
prevention and protection side. Because I have been in shelters 
all over the world, and so many of those shelters are run by 
faith-based organizations. And I have been astounded how much 
healing happens in a faith-based shelter where the love and 
almost like the 12-step program for AA. If it wasn't for the 
God side of it, some people would never get to that point where 
they can overcome their addiction to alcohol or drugs. And I 
have seen it time and time again, that joy in the eyes of a 
woman who has been trafficked and cruelly exploited, but with a 
smile on her face because she has found new hope in her own 
life.
    And Sister Eugenia, I have been to her programs in shelters 
in Rome and met women, one woman who was from Nigeria. As a 
matter of fact, Greg and I, he will recall this. She had been 
trafficked for 5 years, and this woman had joy unspeakable 
about her new life and was soon going to be getting married. I 
mean, she really had turned her life around through that 
shelter. And the same way in Lima, Peru; name the place, I have 
seen them.
    And so, how do governments, how does our Government stop 
this arm's length? I find it with the European Union approach. 
I am the Special Representative for Human Trafficking for the 
Parliamentary Assembly for the OSCE, the Organization for 
Security and Cooperation in Europe. My counterpart a couple of 
years ago, she and I used to fight over it--she said no faith-
based in the shelters; they are not allowed.
    I was in Sarajevo at a shelter and they told me in the 
shelter they wouldn't allow any Muslims, Christians, or Jews, 
or anyone with faith, to come in and assist the women. I was 
not only shocked, but I was disappointed and argued with them 
for the better part of an hour.
    So, we need, it seems to me, to recognize the extraordinary 
value that faith-based brings to healing and prevention, so 
protection. If you could elaborate on that?
    Ms. Lummert. Thank you, Mr. Chairman.
    The meeting that I was at at the Vatican, one of the 
impetuses of that was the collaboration between law enforcement 
and the Catholic Church in England, and, in particular, for 
example, what they are doing there is the religious community, 
the religious Sisters are actually working in collaboration 
with Scotland Yard to identify victims of trafficking, because 
the law enforcement recognized that there is only so much they 
can do to identify victims of trafficking. And they recognized 
the Church can play a role in prevention, in awareness in the 
communities most at risk, and also in identifying more than the 
law enforcement can themselves.
    Here in the U.S. one of the initiatives that we have is 
working with the Customs and Border Patrol and the Inspection 
Officers to provide informational briefings on identifying 
victims of trafficking, in particular, children. And we have 
had positive response from that. The officers say that they 
feel like they can be more aware and know what to do as a 
result of those briefings.
    What we bring to that is child development expertise. We 
bring our expertise in knowing about particular cases of child 
victims of trafficking who have been identified in the U.S. and 
that education, then, is helpful to them. So, we are hoping to 
be able to expand that as an example of a collaboration with 
law enforcement.
    Mr. Smith. Thank you.
    Mr. Burns, you spoke, and it was very encouraging to hear, 
how the Philippines and Cambodia reacted to tier rankings, you 
said trafficking against women is truly enforced and that they 
are taking seriously their obligations, and it is making a 
difference in the lives of children.
    We have always believed, I and others, Mark Lagon I know as 
Ambassador, that when you chronicle something, when you 
honestly ascribe a real value to it pro or con based on the 
record, people stand up and take notice, particularly when 
there is a penalty phase down the line, or a potential one.
    What happens when we go the other way and take a pass, 
punt? When somebody should be dropped, as you said with 
Uzbekistan--and I do think, Dr. Uddin, you would like to see 
Burma as a Tier 3 country as well. You raised the question and 
I think your bottom line would be that it would be a Tier 3 
country. When we don't do it, what happens to the victims and 
to trafficking in that country? Do we unwittingly enable it?
    Mr. Burns. I don't think I would go as far as to say that 
we enable it because I think the responsibility to govern the 
country still rests with the country, but we certainly don't 
help. I think what IJM would say is this goes to the point that 
the TIP office needs to be very independent. It needs to be 
free to, as I think Ambassador Lagon said, honestly and perhaps 
scientifically evaluate all the nations of the world and give 
them the appropriate tier ranking. So, we would favor anything 
that gives them more independence, such as we supported the 
bill to make them a bureau.
    But, yes, I think you can take the experience in the 
Philippines and see that the Philippines was quite motivated to 
protect its citizens because of the downgrading on its tier 
ranking. And had you not done that, they wouldn't have had that 
motivation and we would have had great difficulty getting them 
to enforce the law.
    Mr. Smith. Greg Simpkins and I and Piero, also on our 
staff, and two other Members were in the Philippines right 
after the typhoon.
    Mr. Burns. Yes.
    Mr. Smith. And frankly, there seemed to be among the NGO 
community definitely--we were with CRS most of the time and 
USAID--but there seemed to be a great recognition that children 
could be trafficked, and women, of course, under the cloud of a 
catastrophe.
    We met with two high-ranking officials, the Foreign 
Minister as well as the Health Minister, and they seemed to get 
it as well. So, would that comport with your view that they are 
very serious?
    Mr. Burns. Absolutely. In fact, my examples went to the 
government taking trafficking seriously in the Philippines. But 
the public, too--and this is probably a bit unique in the 
Philippines because the Philippines pays great attention to 
what the United States does--the public is very conversant in 
the trafficking issues. And I had people just on the street 
quote to me various aspects of the TIP Report.
    Mr. Smith. Dr. Uddin, you note in your testimony that one 
of the trafficking routes for Rohingya victims runs from Burma 
to Malaysia. You also note that Thai authorities have 
participated in the trafficking of Rohingya. Have Malay 
authorities also engaged in trafficking of Rohingya who have 
arrived in or moved to Malaysia? And what happens once they 
arrive in Malaysia?
    Mr. Uddin. Thank you, Mr. Chairman, for the question.
    As of now, there is no report of Malaysian authorities, 
Malaysian police force or immigration involved in trafficking 
like there is in Thailand with Thai forces.
    When the victim arrives in Malaysia, they are reported to 
be confined into hard laborers and forced laborers, underaged 
laborers, things like that. We have not seen any reports of sex 
slavery issues in Malaysia, but if there are any, they are 
reportedly near the Thai border. But primarily the sex issues 
of underaged and women are along the border of Malaysia and 
Thailand. There are camps there. On the other side there is a 
wooded area, forested areas. There are some isolated islands. 
That is where it is taking place.
    According to reports, the Malaysian Government reportedly 
is sympathetic to Rohingya refugees more than Thailand, and 
according to the report, they have responded somewhat 
positively to Rohingya issues. There are no reports of 
brutality against refugees, what we have seen on the Internet 
and the pictures. The Thai police is doing it. The Thai 
Government is refusing it.
    So, as of now, we have not seen anything from the Malaysian 
side, but that is not to say that it could not happen in the 
future, because this problem is escalating, getting bigger on a 
daily basis. More people are leaving Burma. More people are 
leaving Arakan State. Approximately 40,000 refugees, people, 
have moved through Thailand in 2013. That is a lot of people, 
40,000 people.
    So now, are we going to prevent that or is it going to be 
more than 40,000 this year in 2014? So, once things escalate 
and spill over to Malaysia, this sex trade thing can spill over 
to Malaysia. Even Indonesia, we didn't have many refugees in 
Indonesia a couple of years ago. Now we have several hundreds, 
probably in thousands, in Indonesia. This local issue in Burma 
in Arakan State, this normal local issue, is becoming a 
regional issue, and I am afraid it is expanding, escalating 
into a global issue.
    Mr. Smith. Thank you.
    Let me ask Ambassador Lagon, if you would speak to the 
issue of Vietnam, whether or not they ought to be a Tier 3 
country, in your view? China as well, would you designate them 
or keep them on the Tier 3 list?
    You mentioned New Zealand and, then, the fact that there 
has not been any serious prosecutions in the last 9 years. That 
is one I didn't anticipate. Maybe why New Zealand?
    Regarding the Japanese businessmen who are traveling to 
Southeast Asia, I mean, what is Japan doing to mitigate this 
terrible problem of trafficking? And that would go from some 
parts of South America as well, particularly Peru.
    And then, finally, you also note in your testimony that 
many EU nations, member states, have been discussing stronger 
attempts at combating demand by focusing on enforcement on the 
buyers of commercial sex in general. How does the commercial 
sex industry, which I think is an absolute nefarious industry--
and I often get criticized for being whole-heartedly against 
it--and human trafficking overlap? Do you have any indication 
of the manner that an EU-wide ban on purchasing of sex would 
change the sex trafficking patterns of the EU?
    Ambassador Lagon. Lots of good questions. I will be brief.
    I am very concerned about the situation in Vietnam and the 
situation for Vietnamese citizens who migrate elsewhere, and 
the situation of labor recruiters. I also am concerned about 
trafficking within Vietnam, and I think it deserves close 
scrutiny for receiving the lowest of grades.
    As for China, you know, it is very good that it finally was 
subjected to the downgrade without any waivers. I think there 
are any number of reasons, some of which we talked about 
before--the demographic situation, and the vulnerability of 
North Koreans but also the movement of people within China 
without a social safety net which also makes them vulnerable to 
human trafficking. I, myself, am not in the trafficking office 
right now, but I don't see any grounds for raising China's 
ranking.
    I think we just need to look at the gap between a ranking 
and between a narrative. In the case of New Zealand, it is 
striking. You know what happens in the State Department? When 
there is a disagreement between a regional bureau and the 
trafficking office, and it is refereed at the most senior 
levels of the Department, if the trafficking office loses and 
the ranking is higher than it recommended, then it gets more of 
an opportunity to incorporate in the narrative the facts. And 
you will notice some gaps.
    A country which has not found a victim or prosecuted a 
perpetrator in 7 years is one for which you have to ask the 
question, is it really meeting the minimum standards? It 
shouldn't get credit for just doing good work in less-developed 
countries in the region.
    Of the many problems in Japan, I am concerned about those 
who are tourists elsewhere. It is a fact that there are 
Westerners who are child sex tourists and customers of 
commercial sex that drive sex trafficking in the Asian region, 
but, in fact, there are Asian tourists that are the major 
drivers. And the Japanese tourists are among them. Government 
authorities and businesses in Japan need to take responsibility 
for that.
    On your final question about the commercial sex industry, I 
do not believe that prostitution and sex trafficking are one 
and the same, but prostitution is the enabling environment. If 
there was not a sex market, there would not be these huge 
profits to be made by sex traffickers.
    The situation of human trafficking around the world is one 
in which the traffickers reap big profits and seeks out a 
situation of low risk. I believe that if Europe as a whole took 
on the Nordic model, then some of the successes that one sees 
in Sweden would be enjoyed elsewhere. And the opposite model 
has been a manifest failure, most markedly seen in the case of 
Germany.
    Mr. Smith. Let me ask you, Mr. Campbell, very quickly, the 
ILO Convention 182 enforcement, you know, the deployment of the 
ILO monitoring team, you did mention in your testimony that 
they were hindered, and yet, they still were able to come to 
some very profound conclusions. Could you just say how large 
was the team? How were they hindered? Were they threatened? 
Were people who talked to them threatened? Did they have to 
find clandestine ways to make contact with people, so that they 
could take accurate notes about what was happening?
    Mr. Campbell. Sure. Thank you for that great question, 
because it is complicated.
    The reason the ILO is hindered is because they view 
themselves as a body of social partners. That would be the 
governments, the employers, and the trade unions. It is the 
only U.N. agency that is set up with those tripartite partners.
    In the case of Uzbekistan, those partners are one and the 
same. The government, the trade union, and the employers are 
all agents of the government. They are not independent. So, 
therefore, the ILO social partner model breaks down 
significantly when entering into Uzbekistan.
    The way that the monitoring was conducted from the 
methodology in their report was one ILO monitor ran a team of 
up to 40 local government officials who were designated by the 
Uzbek Government. The Uzbek Government required the ILO to only 
look at and report on violations of Convention 182; 182 is the 
Convention on the Worst Forms of Child Labor. Included in that 
Convention as a worst form of child labor is forced child 
labor.
    But, with that extremely-limited definition, the ILO was 
not allowed to look at the issue of forced labor generally. So, 
therefore, they had to find very creative ways to get that 
information out in their report. For example, they had quotes 
that said, ``We have concerns about the way labor is 
recruited.'' They can't come right out and say it because the 
report has to be approved by all the social partners, and in 
this case the social partners were the Uzbek Government.
    And so, I think in a different way that they were 
interfered with. And again, I am not holding the ILO 
responsible for this. It is their constitution. They have to 
follow their own rules. I suppose in this regard what I would 
say is that there were efforts across the country in advance of 
the ILO getting there to make sure that people who were going 
to report out on the harvest were saying what they were 
supposed to say.
    In one very stark example--and this is just a real shame--a 
journalist, his name was Sergei Naumov, he was just days before 
the ILO appeared in his area, where he had been documenting the 
continued enforcement of labor to harvest cotton; he was 
photographing it. He was arrested, held incommunicado for 
eight, I think between 8 and 10 days. I will have to double-
check. He was not allowed to communicate out that he was even 
arrested and all of that happened while the ILO was out there 
trying to monitor in that region.
    So, I think the government has made extreme efforts in 
order to look like they are cooperating with the ILO, but they 
have used some very unknowable procedures, and they are very 
difficult to understand from the ILO perspective because it is 
all within the ILO. They have used some procedures to their 
advantage.
    I would strongly encourage the International Labor 
Organization and its social partners, which work very well 
together on this issue--the employers and the unions is the 
only case at the ILO where the International Organization of 
Employers and the International Trade Union Confederation are 
on the same page.
    This is a tremendous opportunity. Unfortunately, we are 
not, as an international community at the ILO, looking at the 
issue of Convention 105. Convention 105 prohibits the 
mobilization of labor for economic activity by a government. 
That is exactly what is going on here.
    And so, therefore, I hope this year the International Labor 
Organization at its meetings this summer, at the Committee on 
Application of Standards, will take up the issue of Convention 
105. By doing so, the Uzbek Government will no longer be able 
to deny they violate that Convention. They are only able to do 
it now because they keep trying to push us in a different 
direction. They are trying to say, ``See, look. Look at what we 
are doing for our children.'' They want us to ignore what is 
happening to the adults.
    Unfortunately, the ILO's hands are tied in this manner, but 
they will have a decent work program. And I hope that they can 
start these conversations. But, again, they have agreements to 
begin talking about talking about the problems. What we need is 
action, and that is not what is happening.
    Thank you.
    Mr. Smith. Just a couple of final questions.
    Again on New Zealand, we have had more trafficking 
prosecutions in my congressional district than the entire 
country of New Zealand. We just had a recent one in Lakewood, 
New Jersey, for example. And in and around the Super Bowl, in 
the days and weeks leading up to it, 70 women were liberated, 
including 25 minors, and some 40 pimps were arrested in 
connection--some were already being put under surveillance 
before the Super Bowl, but it was all released right around the 
Super Bowl time.
    In regards to the TVPA, in my opinion there has been 
somewhat of a disconnect between we do the right thing on, at 
least we hope we do, designating countries, and that is a tug-
of-war within the State Department. The reason why we are 
having this hearing is to give advanced notice to the TIP 
office and others where you and us and others are thinking they 
ought to be going, because you are experts in the field.
    But the second shoe to drop is the penalty phase, and that 
often lags to the point of nothing happens. And if you don't do 
something enough, the offending countries say it is a worthless 
gesture. Why have penalties if you are not going to impose 
them?
    Nowhere is that more clear than in the International 
Religious Freedom Act, where time and again individual 
countries are named as a Country of Particular Concern and they 
never get sanctioned.
    Anyone who would want to touch on that? Your thoughts on 
that? The penalty phase, China, were they ever penalized for 
being a new Tier 3 country?
    You mentioned, Ambassador Lagon, about Japan. Why is Japan 
given such a non-look, if you will. As you said, they have not 
signed onto Palermo. There has not been a whole lot done there, 
and there are problems with sex tourism, particularly of 
Japanese businessmen.
    Ambassador Lagon. Well, actually, the question on Japan is 
whether it goes down from Tier 2. Let me say that one of the 
greatest sources of friction that I have faced in my time as 
the Ambassador was the concern of Japan that it was not getting 
Tier 1 like every other G7 country.
    Even the U.S. Embassy, where there is often resistance to 
taking up tough human rights and human trafficking issues, was 
adding things to the list that we were taking to the Japanese 
Government about what it needed to do.
    As far as the sanctions that would go along with Tier 3, it 
is odd that the countries that get sanctions are the ones that 
already have sanctions. I will say that the moral opprobrium, 
the stigma, that goes along with the lowest ranking may be the 
most powerful element of Tier 3. But the United States is 
leaving on the table leverage that it might have by actually 
using those sanctions.
    And some of the cases that my colleagues have pointed out 
here of the United States using its voice and vote in 
international financial institutions show another way that the 
United States could help assert pressure.
    I will say that when Moldova faced Tier 3, its designation 
with status from the Millennium Challenge Corporation was put 
under threat when the United States gave it Tier 3 in 2008. 
That really matters.
    Mr. Smith. Yes?
    Mr. Campbell. Congressman, on the issue of sanctions, I 
think it is important to recognize that it is not just an issue 
of sanctions. And the voice and vote I think is the best 
example.
    What it is, it is a common-sense policy to avoid investing 
in a forced labor system in Uzbekistan. I wouldn't view it as a 
sanction. I would view it as an instruction that the United 
States Government should be avoiding what we prohibit already, 
which is investing in forced labor.
    And so, I would say that it should be a matter of course 
that, when a government is downgraded to Tier 3, if the 
international financial institutions are going to invest in 
those sectors that are the cause of that downgrade, we must, as 
a matter of course, use our voice and vote to prevent that from 
happening. Otherwise, we will just be throwing money after or 
into a forced labor system.
    Mr. Smith. Yes, like to add anything, Dr. Uddin?
    Mr. Uddin. Yes. I would like to see that the waiver of the 
Burmese Government, President Obama giving the waiver, we need 
to monitor that very closely and designate any improvement. If 
there is no improvement, it has to be reevaluated.
    I would love to see the Burma, the great country that I 
know of, coming off this list, of Tier 2, from Tier 3 to Tier 
2, Tier 1, and gone. I would love to see that, but we know what 
needs to be done. We need to make sure that the Burmese 
Government knows, and they know, also, what needs to be done, 
so they can get off the list.
    And I would like to give the opportunity to the Burmese 
Government with this incentive, this waiver. And we hope that 
the Burmese Government will take a look at it seriously and, 
then, address the issue on the ground, the root cause of the 
issue, rather than chasing the smugglers, arresting the 
smugglers, traffickers, and punishing them. That is clipping 
the tip of the leaves, not the roots of the tree. So, that is 
what we hope, that the Burma Government will cooperate with the 
international community and resolve the issue on the ground. I 
am sure that the rest of the sequence of events can be 
prevented.
    Mr. Smith. Would anybody else like to add anything before 
we close?
    [No response.]
    You have been very gracious with your time. A thousand 
pardons for all those interruptions.
    But this transcript will be used. We will share it with our 
leadership, Republican and Democrat. We will get it down to the 
TIP office, make sure that Ambassador Luis CdeBaca, who is very 
responsive and very capable, will have the benefit of your 
testimonies. And as soon as we get a transcript, he will have 
the benefit of your incisive answers to questions, so that they 
have the most informed input from people who are truly expert. 
And that is the five of you.
    So, thank you.
    The hearing is adjourned.
    [Whereupon, at 5:16 p.m., the meeting was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
